 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




IOWA DID NOT PROPERLY PAY SOME
  MEDICARE PART A AND PART B
 DEDUCTIBLES AND COINSURANCE




   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Patrick J. Cogley
                                                Regional Inspector General

                                                       November 2012
                                                       A-07-12-03178
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Iowa, the Department of Human Services
(State agency) administers the Medicaid program.

As part of the implementation of its Medicaid program, States can submit demonstration waiver
requests to CMS under the provisions of section 1115 of the Act. These demonstration waivers,
upon approval, allow exceptions to certain requirements and limitations of the Act. Two
approved demonstration waivers in Iowa are the IowaCare demonstration waiver and the Family
Planning demonstration waiver. The IowaCare demonstration waiver provides services and
coverage to individuals not normally eligible for either Medicaid or Medicare. The Family
Planning demonstration waiver provides specific services and coverage to individuals not
normally eligible for Medicaid.

In addition to the demonstration waivers, section 1902 of the Act allows States to provide
Medicaid services and coverage for an optional-coverage group of women who have been
screened for breast or cervical cancer and need treatment, but who are not otherwise covered
under creditable coverage (i.e. Medicare).

Pursuant to Title XVIII of the Act, the Medicare program provides health insurance for people
aged 65 and over, people with disabilities, and people with permanent kidney disease. CMS
contracts with fiscal intermediaries, carriers, or Medicare administrative contractors (Medicare
contractors) to process and pay Medicare Part A and Part B claims submitted by providers.

“Dual eligibles” are individuals who are entitled to both Medicare and some form of Medicaid
benefits. There are various groups of dual eligibles, including but not limited to Qualified
Medicare Beneficiary (QMB) without full Medicaid (QMB Only), QMB with full Medicaid
(QMB Plus), Specified Low-Income Beneficiary with full Medicaid (SLMB Plus), and Full
Benefit Dual Eligible (FBDE). These eligibility groups are qualified to have their Medicare
Part A and Part B deductibles and coinsurance paid for by the Medicaid program.

After the Medicare contractor pays a Medicare Part A or Part B claim for a dual eligible and
assesses the Medicare Part A or Part B deductibles and coinsurance, the contractor forwards the
claim information to the appropriate State’s Medicaid program. The State Medicaid program
determines, based on the guidelines established in its State plan, whether to pay part or all of the
Medicare Part A or Part B deductibles and coinsurance and then pays the provider through the
usual Medicaid payment system. We refer to such claims as crossover claims.




                                                  i
The State agency claimed Federal reimbursement for Medicaid payments totaling approximately
$3.34 billion (approximately $2.27 billion Federal share) during fiscal year (FY) 2011
(October 1, 2010, through September 30, 2011). As part of these Medicaid payments, the State
agency claimed approximately $107.9 million (approximately $73.8 million Federal share) for
payments for Medicare Part A and Part B deductibles and coinsurance.

OBJECTIVE

Our objective was to determine whether the State agency claimed Medicaid payments for
Medicare Part A and Part B deductibles and coinsurance in accordance with Federal
requirements and the approved State plan.

SUMMARY OF FINDINGS

During FY 2011, the State agency did not always claim Medicaid payments for Medicare Part A
and Part B deductibles and coinsurance in accordance with Federal requirements and the
approved State plan. Specifically, the State agency did not limit:

   •   enrollment in the IowaCare demonstration waiver to persons not otherwise eligible for
       Medicare (unallowable Medicaid payments for Medicare Part A and Part B deductibles
       and coinsurance due to this error totaled $157,168 ($106,177 Federal share));

   •   enrollment in the optional breast or cervical cancer treatment to persons not otherwise
       covered under creditable coverage (i.e. Medicare) (unallowable Medicaid payments for
       Medicare Part A and Part B deductibles and coinsurance due to this error totaled $46,012
       ($33,976 Federal share)); and

   •   Medicaid payments for Medicare Part A and Part B deductibles and coinsurance made on
       behalf of women under the Family Planning demonstration waiver to those services listed
       as allowable (unallowable Medicaid payments for Medicare Part A and Part B
       deductibles and coinsurance due to this error totaled $8,291 ($7,462 Federal share)).

Based on the results of our audit, the State agency claimed unallowable Medicaid payments for
Medicare Part A and Part B deductibles and coinsurance of $211,471 ($147,615 Federal share)
during FY 2011.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $147,615 to the Federal Government; and

   •   ensure that Medicaid payments for Medicare Part A and Part B deductibles and
       coinsurance are allowable under Federal requirements and the approved State plan,
       specifically by limiting:



                                               ii
           o IowaCare enrollment to persons not otherwise eligible for Medicare;

           o optional breast or cervical cancer treatment enrollment to persons not otherwise
             covered under creditable coverage (i.e. Medicare); and

           o Medicaid payments for Medicare Part A and Part B deductibles and coinsurance
             made on behalf of women under the Family Planning demonstration waiver to
             those services listed as allowable.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations and described corrective actions that it had taken or planned to implement.

The State agency’s comments are included in their entirety as the Appendix.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION .......................................................................................................................1

      BACKGROUND ..................................................................................................................1
         Medicaid Program .........................................................................................................1
         Medicare Program .........................................................................................................1
         Dual Eligibles ................................................................................................................1
         Medicaid’s Role in Paying Medicare Part A and Part B
           Deductibles and Coinsurance .....................................................................................2
         Iowa Medicaid Program ................................................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................3
         Objective .......................................................................................................................3
         Scope .............................................................................................................................3
         Methodology .................................................................................................................3

FINDINGS AND RECOMMENDATIONS .............................................................................4

          UNALLOWABLE MEDICAID PAYMENTS CLAIMED .............................................4
           IowaCare Medicaid Payments ......................................................................................4
           Breast or Cervical Cancer Treatment Medicaid Payments ...........................................5
           Family Planning Medicaid Payments ...........................................................................6

          RECOMMENDATIONS ..................................................................................................6

          STATE AGENCY COMMENTS .....................................................................................7

APPENDIX

          STATE AGENCY COMMENTS




                                                                     iv
                                             INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Iowa, the Department of Human Services
(State agency) administers the Medicaid program.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of each State’s
claimed medical assistance payments under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase or
decrease FMAPs at any time. Certain Medicaid services receive a higher FMAP, including
family planning services 1 and breast or cervical cancer treatment. 2 During fiscal year (FY) 2011
(October 1, 2010, through September 30, 2011), Iowa’s FMAP ranged from 62.63 percent to
72.55 percent. 3

Medicare Program

Pursuant to Title XVIII of the Act, the Medicare program provides health insurance for people
aged 65 and over, people with disabilities, and people with permanent kidney disease. CMS
contracts with fiscal intermediaries, carriers, or Medicare administrative contractors (Medicare
contractors) to process and pay Medicare Part A and Part B claims submitted by providers.

Dual Eligibles

“Dual eligibles” are individuals who are entitled to both Medicare and some form of Medicaid
benefits. There are various groups of dual eligibles, including but not limited to Qualified
Medicare Beneficiary (QMB) without full Medicaid (QMB Only), QMB with full Medicaid

1
  Section 1903(a)(5) of the Act and 42 CFR §§ 433.10 and 433.15 provide for an enhanced FMAP rate of 90-percent
for family planning services.
2
 Pursuant to CMS’s letter to State Health Officials, dated January 4, 2001: “The Federal matching rate for the new
eligibility group [breast or cervical cancer treatment] is equal to the enhanced Federal Medical Assistance
Percentage (FMAP) used in the State Children’s Health Insurance Program (SCHIP) (described in § 2105(b) of the
Social Security Act (the Act)).”
3
 Pursuant to the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, as amended by
P.L. No. 111-226, States’ FMAPs were temporarily increased for the period October 1, 2008, through June 30, 2011.



                                                        1
(QMB Plus), Specified Low-Income Beneficiary with full Medicaid (SLMB Plus), and Full
Benefit Dual Eligible (FBDE). These eligibility groups are qualified to have their Medicare
Part A and Part B deductibles and coinsurance paid for by the Medicaid program. 4

Medicaid’s Role in Paying Medicare Part A and Part B
Deductibles and Coinsurance

After the Medicare contractor pays a Medicare Part A or Part B claim for a dual eligible and
assesses the Medicare Part A or Part B deductibles and coinsurance, the contractor forwards the
claim information to the appropriate State’s Medicaid program. The State Medicaid program
determines, based on the guidelines established in its State plan, whether to pay part or all of the
Medicare Part A or Part B deductibles and coinsurance and then pays the provider through the
usual Medicaid payment system. We refer to such claims as crossover claims.

Iowa Medicaid Program

Iowa State Plan

In Iowa, the State agency is responsible for processing crossover claims. Those responsibilities
include establishing systems and internal controls, which include policies and procedures to
accurately pay Medicare Part A and Part B deductibles and coinsurance in accordance with the
State plan.

Demonstration Waivers in Iowa

States can submit demonstration waiver requests to CMS under the provisions of section 1115 of
the Act. These demonstration waivers, upon approval, allow exceptions to certain requirements
and limitations of the Act. Two approved demonstration waivers in Iowa are the IowaCare
demonstration waiver and the Family Planning demonstration waiver. The IowaCare
demonstration waiver provides services and coverage to individuals not normally eligible for
either Medicaid or Medicare. The Family Planning demonstration waiver provides specific
services and coverage to individuals not normally eligible for Medicaid.

Breast or Cervical Cancer Treatment

In addition to the demonstration waivers, section 1902 of the Act allows States to provide
Medicaid services and coverage for an optional-coverage group of women who have been
screened for breast or cervical cancer and need treatment, but who are not otherwise covered
under creditable coverage (i.e. Medicare).




4
 There are other groups of dual eligible beneficiaries who are not qualified to have their Medicare Part A and Part B
deductibles and coinsurance paid for by the Medicaid program: Specified Low-Income Medicare Beneficiary
without full Medicaid (SLMB Only), Qualified Disabled and Working Individual, and Qualified Individual.


                                                         2
Medicaid Payments Claimed by the State Agency During Fiscal Year 2011

The State agency claimed Federal reimbursement for Medicaid payments totaling approximately
$3.34 billion (approximately $2.27 billion Federal share) during FY 2011 (October 1, 2010,
through September 30, 2011). As part of these Medicaid payments, the State agency claimed
approximately $107.9 million (approximately $73.8 million Federal share) for payments for
Medicare Part A and Part B deductibles and coinsurance.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Medicaid payments for
Medicare Part A and Part B deductibles and coinsurance in accordance with Federal
requirements and the approved State plan.

Scope

We reviewed approximately $107.9 million (approximately $73.8 million Federal share) in
Medicaid payments for crossover claims that the State agency claimed for Federal
reimbursement for Medicare Part A and Part B deductibles and coinsurance during FY 2011.

Our objective did not require a review of the State agency’s overall internal control structure.
Therefore, we limited our internal control review to the State agency’s procedures for paying
Medicare Part A and Part B deductibles and coinsurance.

We conducted fieldwork at the State agency in Des Moines, Iowa, in March 2012.

Methodology

To accomplish the objective, we reviewed:

   •    applicable Federal requirements and the approved Iowa State plan;

   •    reviewed the demonstration waiver requirements;

   •    interviewed State agency officials to gain an understanding of their policies, procedures,
        and internal controls for claiming Medicare Part A and Part B deductibles and
        coinsurance;

   •    requested and received from the State agency crossover claim data for paid Medicare Part
        A and Part B deductibles and coinsurance;

   •    analyzed crossover claim data and developed three datasets of payments to providers for
        Medicare Part A and Part B deductibles and coinsurance for: (1) the IowaCare



                                                 3
       demonstration waiver, (2) breast or cervical cancer treatment, and (3) the Family
       Planning demonstration waiver;

   •   reviewed 100 percent of the crossover claim data in the three datasets;

   •   computed the unallowable Medicaid payments for each dataset; and

   •   discussed our results with State agency officials on July 26, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

During FY 2011, the State agency did not always claim Medicaid payments for Medicare Part A
and Part B deductibles and coinsurance in accordance with Federal requirements and the
approved State plan. Specifically, the State agency did not limit:

   •   enrollment in the IowaCare demonstration waiver to persons not otherwise eligible for
       Medicare (unallowable Medicaid payments for Medicare Part A and Part B deductibles
       and coinsurance due to this error totaled $157,168 ($106,177 Federal share));

   •   enrollment in the optional breast or cervical cancer treatment to persons not otherwise
       covered under creditable coverage (i.e. Medicare) (unallowable Medicaid payments for
       Medicare Part A and Part B deductibles and coinsurance due to this error totaled $46,012
       ($33,976 Federal share)); and

   •   Medicaid payments for Medicare Part A and Part B deductibles and coinsurance made on
       behalf of women under the Family Planning demonstration waiver to those services listed
       as allowable (unallowable Medicaid payments for Medicare Part A and Part B
       deductibles and coinsurance due to this error totaled $8,291 ($7,462 Federal share)).

Based on the results of our audit, the State agency claimed unallowable Medicaid payments for
Medicare Part A and Part B deductibles and coinsurance of $211,471 ($147,615 Federal share)
during FY 2011.

UNALLOWABLE MEDICAID PAYMENTS CLAIMED

IowaCare Medicaid Payments

Federal regulations (42 CFR § 431.420(a)(2)) state: “States must comply with the [special]
terms and conditions of the agreement between the Secretary [of Health and Human Services]
and the State to implement a State demonstration project [waiver].”


                                                4
The agreement between CMS and the State agency regarding the IowaCare demonstration
waiver specifies, as part of the special terms and conditions, that the expansion population is
comprised of persons “… not otherwise eligible for Medicaid or Medicare.”

The State agency did not always claim Medicaid payments for Medicare Part A and Part B
deductibles and coinsurance in accordance with Federal requirements. Specifically, the State
agency did not comply with the special terms and conditions of its agreement with CMS when
implementing the approved IowaCare demonstration waiver. Under the IowaCare demonstration
waiver’s special terms and conditions, expansion population enrollment is limited to persons not
otherwise eligible for Medicaid or Medicare.

During our review of the crossover claims, we found Medicaid payments for Medicare Part A
and Part B deductibles and coinsurance for persons enrolled in IowaCare, which meant that these
persons were, in fact, eligible for Medicare. Therefore, contrary to the provisions of the
IowaCare demonstration waiver, the State agency did not limit expansion population enrollment
during FY 2011 to persons not eligible for Medicare. As a result, the State agency claimed
unallowable Medicaid payments for Medicare Part A and Part B deductibles and coinsurance of
$157,168 ($106,177 Federal share) for 325 persons enrolled in the IowaCare demonstration
waiver program.

Breast or Cervical Cancer Treatment Medicaid Payments

Sections 1902(a)(10)(A)(ii)(XVIII) and 1902(aa)(4) of the Act define a group of women who
qualify for the breast or cervical cancer treatment as individuals who “… are not otherwise
covered under creditable coverage ….” Federal regulations (42 U.S.C. § 300gg(c)(1)) define
creditable coverage as “… coverage of the individual under … Part A or [P]art B of [T]itle
XVIII of the Social Security Act [Medicare] ….”

Further, Section 1902(a) of the Act states: “A State plan for medical assistance must—
(1) provide that it shall be in effect in all political subdivisions of the State, and, if administered
by them, be mandatory upon them ….” In addition, Federal regulations (42 CFR § 431.50(b)(1))
expand upon this provision of the Act by requiring that the State plan “… be in operation
statewide through a system of local offices, under equitable standards for assistance and
administration that are mandatory throughout the State.”

The Iowa State plan, Attachment 2.2-A, provides for an optional coverage group of women who
“… have been screened for breast or cervical cancer … and need treatment …” and who
“… [a]re not otherwise covered under creditable coverage ….”

The State agency did not always claim Medicaid payments for Medicare Part A and Part B
deductibles and coinsurance in accordance with Federal requirements and the approved State
plan. Specifically, the State agency did not comply with enrollment requirements for optional
breast or cervical cancer treatment. Under the approved State plan, enrollment is limited to
persons not otherwise covered under creditable coverage (i.e. Medicare).




                                                   5
During our review of the crossover claims, we found Medicaid payments for Medicare Part A
and Part B deductibles and coinsurance for persons enrolled in breast or cervical cancer
treatment, which meant that these persons were, in fact, eligible for Medicare. Therefore,
contrary to the enrollment requirements for optional breast or cervical cancer treatment, the State
agency did not limit enrollment during FY 2011 to persons not eligible for creditable coverage
(i.e. Medicare). As a result, the State agency claimed unallowable Medicaid payments for
Medicare Part A and Part B deductibles and coinsurance of $46,012 ($33,976 Federal share) for
28 persons enrolled in breast or cervical cancer treatment.

Family Planning Medicaid Payments

Federal regulations (42 CFR § 431.420(a)(2)) state: “States must comply with the [special]
terms and conditions of the agreement between the Secretary [of Health and Human Services]
and the State to implement a State demonstration project [waiver].”

The agreement between CMS and the State agency regarding the Family Planning demonstration
waiver specifies, as part of the special terms and conditions, that Federal financial participation
for the “… services (including prescriptions) provided to women under the family planning
demonstration [waiver] will be … described in Attachment B.” Attachment B of the waiver is a
list of allowable services and corresponding procedure codes. The list includes procedure codes,
a description of the code, and the Federal reimbursement rate for each code.

The State agency did not always claim Medicaid payments for Medicare Part A and Part B
deductibles and coinsurance in accordance with Federal requirements. Specifically, the State
agency did not comply with the special terms and conditions of its agreement with CMS in
implementing the approved Family Planning demonstration waiver, because it did not limit
Medicaid payments during FY 2011 for Medicare Part A and Part B deductibles and
coinsurance, made on behalf of women under the waiver, to allowable services. As a result, the
State agency claimed unallowable Medicaid payments for Medicare Part A and Part B
deductibles and coinsurance of $8,291 ($7,462 Federal share) for services provided to 28 women
that were unallowable under the Family Planning demonstration waiver.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $147,615 to the Federal Government; and

   •   ensure that Medicaid payments for Medicare Part A and Part B deductibles and
       coinsurance are allowable under Federal requirements and the approved State plan,
       specifically by limiting:

           o IowaCare enrollment to persons not otherwise eligible for Medicare;

           o optional breast or cervical cancer treatment enrollment to persons not otherwise
             covered under creditable coverage (i.e. Medicare); and


                                                 6
           o Medicaid payments for Medicare Part A and Part B deductibles and coinsurance
             made on behalf of women under the Family Planning demonstration waiver to
             those services listed as allowable.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations and described corrective actions that it had taken or planned to implement.

The State agency’s comments are included in their entirety as the Appendix.




                                               7
APPENDIX
                                                                                           Page 1 of 5



                APPENDIX: STATE AGENCY COMMENTS



                               Department of Human Services
                   Terry E. Branstad                Kim Reynolds              Charles M. Palmer
                   Governor                         Lt. Governor              Director


 OCT 1 6 2012

Patrick J. Cogley
Regional Inspector General for Audit Services
Office of Inspector General
Region VII
601 East 1ih Street, Room 0429
Kansas City, MO 641 06

RE:   Iowa Did Not Properly Pay Some Medicare Part A and Part B Deductibles and
      Coinsurance, Draft Report, A-07 -12-03178

Dear Mr. Cogley:

Enclosed please find comments from the Iowa Department of Human Services (DHS) on the
September 24, 2012, draft report concerning Office of Inspector General's (OIG) review of the
deductible and coinsurance process at DHS.

DHS appreciates the opportunity to respond to the draft report and provide additional
comments to be included in the final report. Questions about the attached response can be
addressed to:

      Jody Lane-Molnari, Executive Officer II
      Division of Fiscal Management
      Iowa Department of Human Services
      Hoover State Office Building, 1st Floor SW
      1305 E Walnut Street
      Des Moines, lA 50319-0114
      Email: jlanemo@dhs.state.ia .us
      Phone: 515-281-6027

Sincerely,



   cfi14L~
Charles M. Palmer
Director

cc: Greg Tambke, Audit Manager




                           1305 E. Walnut Street, Des Moines, lA 50319-0114
                                                                                             Page 2 of 5





RE: A-07-11-03178



                       IOWA DEPARTMENT OF HUMAN SERVICES
                         RESPONSE TO OIG DRAFT REPORT:

              Iowa Did Not Properly Pay Some Medicare Part A and Part B
                 Deductibles and Coinsurance, Report A-07-12-03178


Background

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. Each state
administers its Medicaid program in accordance with a CMS-approved State Plan. Although
the state has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable federal requirements. In Iowa, the Department of Human Services
(DHS) administers the Medicaid program.

As part of the implementation of its Medicaid program, states can submit demonstration
waiver requests to CMS under the provisions of section 1115 of the Act. These
demonstration waivers, upon approval, allow exceptions to certain requirements and
limitations of the Act. Two approved demonstration waivers in Iowa are the IowaCare
demonstration waiver and the Iowa Family Planning Network (IFPN) demonstration waiver.
The lowaCare demonstration waiver provides services and coverage to individual not
normally eligible for either Medicaid or Medicare. The IFPN demonstration waiver provides
specific services and coverage to individuals not normally eligible for Medicaid.

In addition to the demonstration waivers, section 1902 of the Act allows states to provide
Medicaid services and coverage for an optional-coverage group of women who have been
screened for breast or cervical cancer and need treatment, but who are not otherwise
covered under creditable coverage (i.e. , Medicare).

"Dual eligibles" are individual who are entitled to both Medicare and some form of Medicaid
benefits. There are various groups of dual eligibles, including but not limited to Qualified
Medicare Beneficiary (QMB) without full Medicaid (QBM Only), QMB with full Medicaid (QMB
Plus), Specified Low-Income Beneficiary with full Medicaid (SLMB Plus), and Full Benefit
Dual Eligible (FBDE). These eligibility groups are qualified to have their Medicare Part A and
Part B deductibles and coinsurance paid by the Medicaid program.

After the Medicare contractor pays a Medicare Part A or part B claim for a dual eligible and
assesses the Medicare part A or Part B deductibles and coinsurance, the contractor forwards
the claim information to the appropriate state's Medicaid program. The state Medicaid
program determines, based on the guidelines established in their State Plan, whether to pay
part of all of the Medicare Part A or Part B deductibles and coinsurance, and then pays the
provider through the usual Medicaid payment system. These are referred to as crossover
claims.
                                                                                            Page 3 of 5




       A-07-11-03178


OIG Findings and Recommendations

Iowa DHS claimed federal reimbursement for Medicaid payments totaling approximately
$3.34 billion (approximately $2.27 billion federal share) during federal fiscal year 2011 . As
part of these Medicaid payments, DHS claimed approximately $107.9 million (approximately
$73.8 million federal share) for payments for Medicare Part A and Part B deductibles and
coinsurance.

OIG found that during FFY11 , DHS did not always claim Medicaid payments for Medicare
Part A and Part B deductibles and coinsurance in accordance with the federal requirements
and the approved State Plan. Specifically, DHS did not limit:

   •     Enrollment in the lowaCare demonstration waiver to persons not otherwise eligible for
         Medicare. This resulted in unallowable Medicaid payments for Medicare Part A and
         Part B deductibles and coinsurance and an error of $157,168 ($ 106,177 federal
         share);

   •     Enrollment in the optional Breast or Cervical Cancer Treatment (BCCT) program to
         persons not otherwise covered under credible coverage (i.e., Medicare). This resulted
         in unallowable Medicaid payments for Medicare Part A and Part B deductibles and
         coinsurance and an error of $46,012 ($33,976 federal share);

   •     Medicaid payments for Medicare Part A and Part B deductibles and coinsurance made
         on behalf of women under the IFPN demonstration waiver to those services listed as
         allowable. This resulted in unallowable Medicaid payments for Medicare Part A and
         Part B deductibles and coinsurance and an error of $8,291 ($7,462 federal share).

Based on the results of the audit, OIG finds that DHS claimed unallowable Medicaid
payments for Medicare Part A and Part B deductibles and coinsurance of $211,471
($147,615 federal share).

OIG recommends that DHS:

   •     Refund $147,615 to the federal government; and

   •     Ensure that Medicaid payments for Medicare Part A and Part B deductibles and
         coinsurance are allowable under federal requirements and the approved State Plan,
         specifically by limiting:
            o lowaCare enrollment to persons not otherwise eligible for Medicare;
             o Optional BCCT program enrollment to persons not otherwise covered under
                credible coverage (i.e., Medicare); and\
            o Medicaid payments for Medicare Part A and Part B deductibles and
                coinsurance made on behalf of women under the IFPN demonstration waiver to
                those services listed as allowable.
                                                                                             Page 4 of 5




   : A-07-11-03178


DHS Response

The Iowa Department of Human SeNices concurs with the recommendation as to the refund
of $147,615 to the federal government. Please see the discussion for each of the findings
and recommendations as detailed below which address the corrective actions taken and
planned for each finding.

lowaCare Medicaid Payments

In OIG's evaluation, DHS did not always claim Medicaid payments for Medicare Part A and
Part B deductibles and coinsurance in accordance with federal requirements. The agreement
between CMS and DHS regarding the lowaCare demonstration waiver specifies, as part of
the special terms and conditions, that the expansion population is comprised of persons " ...
not otherwise eligible for Medicaid or Medicare."

In the review of the crossover claims, DHS claimed unallowable Medicaid payments for
Medicare Part A and Part B deductibles and coinsurance for 325 persons enrolled in the
lowaCare demonstration waiver program, when in fact, these persons were eligible for
Medicare.

Response:

The Iowa Department of Human SeNices concurs with the referenced finding and the
recommendation.

To address this finding, DHS has taken and will take the following actions:

   •   On September 17, 2012, DHS notified Income Maintenance Workers not to approve or
       renew lowaCare for individuals who are enrolled in Medicare. Additionally, a listing of
       lowaCare cases with Medicare was generated. The action was taken on the
       approximately 500 cases to cancel eligibility with timely notice effective November 1,
       2012.
   •   A new process was implemented in October 2012 to send a notice to the Income
       Maintenance Worker when an lowaCare member becomes newly eligible for
       Medicare.
   •   Rules regarding timely notice prevent retroactive cancellation of eligibility. It is
       possible that there will occasionally be members who have dual eligibility until timely
       notice can be provided to cancel lowaCare coverage.

Breast or Cervical Cancer Treatment Program Medicaid Payments

In OIG's evaluation , DHS did not always claim Medicaid payments for Medicare Part A and
Part B deductibles and coinsurance in accordance with federal requirements and the
approved State Plan . The State Plan provides for an optional coverage group of women who
" ... have been screened for breast or ceNical cancer ... and need treatment ... " and who " ...
are not otherwise covered under creditable coverage .. .. "
                                                                                             Page 5 of 5





   : A-07-11-03178


In the review of the crossover claims, DHS claimed unallowable Medicaid payments for
Medicare Part A and Part B deductibles and coinsurance for 28 persons enrolled in the BCCT
program , when in fact, these persons were eligible for Medicare.

Response:

The Iowa Department of Human Services concurs with the referenced finding and the
recommendation.

To address this finding, DHS has taken and will take the following actions:

   •   A report is generated each month listing BCCT members who have other insurance,
       including Medicare, in the current month. Additionally a notice, requesting cancellation
       and that an automatic redetermination be conducted, is sent to the Income
       Maintenance Worker upon identification that the BCCT member has Medicare.
   •   Rules regarding timely notice prevent retroactive cancellation of eligibility. It is
       possible that there will occasionally be members who have dual eligibility until timely
       notice to cancel the BCCT coverage can be provided.

Family Planning Medicaid Payments

In OIG's evaluation, DHS did not always claim Medicaid payments for Medicare Part A and
Part B deductibles and coinsurance in accordance with federal requirements. T he agreement
between CMS and DHS regarding the IFPN waiver specifies, as part of the special terms and
conditions, that federal financial participation for the" ... services (including prescriptions)
provided to women under the family planning demonstration [waiver] will be .. . described in
Attachment B." Attachment B is a list of allowable services and corresponding procedure
codes.

In the review of the crossover claims, DHS claimed unallowable Medicaid payments for
Medicare Part A and Part B deductibles and coinsurance for services provided to 28 women
that were unallowable services as described in Attachment B of the IFPN demonstration
waiver.

Response:

The Iowa Department of Human Services concurs with the referenced finding and the
recommendation.

To address this finding , DHS has taken and will take the following actions: ·

   •   Issue 33849 has been opened with the CORE MMIS team to add the following system
       edit. For a cross-over claim, if the member only has IFPN waiver eligibility, if the claim
       does not have a procedure and/or diagnosis matching the IFPN waiver program, deny
       the claim for co-insurance and deductible payment. The edit is expected to be in place
       by November 30, 2012.
